                   AUDIT REPORT


            Audit of NRC’s Vendor Inspection Program

                 OIG-10-A-20 September 28, 2010




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                          September 28, 2010



MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S VENDOR INSPECTION PROGRAM
                            (OIG-10-A-20)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Vendor Inspection Program.

The report presents the results of the subject audit. Agency comments provided at the
August 31, 2010, exit conference and an additional meeting on September 10, 2010,
have been incorporated, as appropriate, into this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or RK Wild, Team Leader, Nuclear Reactor Safety Audit Team, at 415- 5948.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee
  on Reactor Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety
  and Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Hubert T. Bell, Inspector General
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Michael F. Weber, Deputy Executive Director for Materials, Waste,
  Research, State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director
  for Corporate Management, OEDO
Martin J. Virgilio, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Nader L. Mamish, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Office
Roy P. Zimmerman, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Cheryl L. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Catherine Haney, Director, Office of Nuclear Material Safety
  and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security
  and Incident Response
Marc L. Dapas, Acting Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                               Audit of NRC’s Vendor Inspection Program




EXECUTIVE SUMMARY

   BACKGROUND

         The Nuclear Regulatory Commission (NRC) endeavors to protect the
         public health and safety and the environment by overseeing vendor
         compliance with NRC’s regulations for assuring the integrity of domestic
         and global parts and services supplied to nuclear power reactors.
         Vendors manufacture a range of components such as fasteners, pumps,
         valves, and reactor vessels, as well as provide design, engineering, and
         construction services. While most vendors do not hold NRC licenses, they
         are nonetheless bound through contracts with licensees, applicants, or
         other vendors to comply with NRC’s quality assurance regulations
         contained in Appendix B to Title 10, Code of Federal Regulations
         (10 CFR), Part 50 (Appendix B). Vendors are also required to comply with
         10 CFR Part 21 (Part 21). NRC conducts reactive and routine inspections
         of vendors’ implementation of Appendix B and Part 21 requirements.

   PURPOSE

         The audit objective was to assess NRC’s regulatory approach for ensuring
         the integrity of domestic and foreign safety-related parts and services
         supplied to current or prospective nuclear power reactors.

   RESULTS IN BRIEF

         Beginning in 2007, the agency proactively enhanced its overall approach
         to vendor inspections and increased vendor outreach efforts. After the
         creation of the Office of New Reactors (NRO), two new branches were
         established to perform additional vendor inspections, including routine
         inspections. The Office of the Inspector General (OIG) has identified
         areas that need management attention while NRO continues its ongoing
         vendor inspection activities. Specifically:

          Improvements to NRO’s vendor inspection planning would enhance
           the process NRC uses to identify and select vendors for routine
           inspections.

                o NRO’s planning process for identifying and selecting vendors for
                  routine inspections, and its strategy for guiding the process, is
                                       i
                                      Audit of NRC’s Vendor Inspection Program


         largely an informal one. Simply identifying the number of
         vendors is challenging, and NRO does not know how many
         vendors there are or how to identify changes in the vendor
         universe. Furthermore, NRO’s planning for selecting vendors
         for inspection is based on an approach that relies primarily on
         professional judgment. Moreover, NRO’s overall strategic
         approach to vendor identification and selection planning is
         informal as indicated by NRO staff, who have varying views of
         the purposes of the Vendor Inspection Program and routine
         vendor inspections.

 NRC has an opportunity to more effectively communicate its regulatory
  expectations and requirements to vendors.

      o NRC relies on nuclear vendors’ understanding and
        implementation of its regulations to assure that safety-related
        components will perform adequately in service, and that defects
        are reported. In order for vendors supplying nuclear
        components and services to be knowledgeable of their
        obligations under the regulations, NRC must effectively
        communicate the regulations. NRC has undertaken a number
        of efforts to communicate regulations to vendors, but some
        vendors are not aware of all obligations or NRC expectations.
        NRC’s approach to communicating with vendors is not as
        effective as it could be because it does not have an outreach/
        communications plan. When vendors are not knowledgeable of
        their obligations under NRC regulations, vendors might not
        report defects or otherwise fully assure that safety-related
        components will perform adequately in service.

 Commercial-grade dedication and Part 21 regulations and guidance
  could be clarified.

      o Even when vendors are aware of the applicable NRC
        regulations and other regulatory information, NRC could clarify
        its expectations and requirements for Part 21 and for the
        process of obtaining parts from commercial suppliers known as
        commercial-grade dedication. NRC presumes that adherence
        to its regulatory requirements on the part of licensees and
        vendors assures safety. However, nuclear vendors are
        confused about how to adequately implement Part 21 and
                             ii
                                      Audit of NRC’s Vendor Inspection Program


          commercial-grade dedication due to unclear, insufficient, or
          conflicting guidance. Consequently, vendors might fail to
          implement various aspects of their programs in accordance with
          NRC’s regulations, guidance, or expectations. Ultimately, this
          could lead to vendors (1) supplying parts and services to
          nuclear power plants that do not meet NRC regulatory
          requirements or quality assurance expectations, and (2)
          inadequately reporting defects.

 Calibration laboratory approval guidance could be clarified.

      o NRC’s guidance for approving accredited commercial-grade
        calibration laboratories—which calibrate measuring and test
        equipment used by vendors to evaluate the properties of
        materials and parts—could be clarified. In response to a
        request from one of its licensees, NRC allowed a process
        permitting the licensee to approve calibration laboratories based
        on the reviews performed by accrediting bodies in lieu of an
        Appendix B audit or a commercial-grade survey. However,
        since NRC’s guidance documents describing this process are
        disparate, vendors are confused about, and have difficulty
        implementing, the process. Consequently, vendors’ approval of
        laboratories may not be in accordance with NRC’s expectations,
        vendors may find themselves unknowingly in violation of
        Appendix B or NRC commercial-grade dedication requirements,
        and vendors could find they have used out-of-calibration
        equipment during the manufacturing process.

 NRC’s approach to counterfeit, fraudulent, and substandard items
  (CFSI) could be strengthened.

      o NRC could strengthen its current approach to CFSI. Both the
        Federal Government and private sector have recognized the
        increasing prevalence of CFSI in nuclear and other industries.
        However, NRC’s approach has been primarily reactive and
        based largely on the abilities of one or two individuals to monitor
        and evaluate the threat. This is because NRC lacks a formal
        strategy and plan to monitor and evaluate potential CFSI, and




                             iii
                                           Audit of NRC’s Vendor Inspection Program


               consider program changes to address the issue. Consequently,
               the lack of any formal strategy or framework could result in
               reactor construction problems with major implications for public
               health and safety.

RECOMMENDATIONS

     This report makes 10 recommendations to help NRC improve its oversight
     of the nuclear vendors and the parts and services they supply to nuclear
     power plants. A consolidated list of the recommendations appears in
     Section IV of this report.

AGENCY COMMENTS

     On August 17, 2010, OIG provided a draft report to the Executive Director
     for Operations. OIG held an exit conference with the agency on
     August 31, 2010. During that meeting agency management provided
     informal comments to the draft report. Also, on September 10, 2010, OIG
     held an additional meeting with NRC staff to discuss the agency’s informal
     comments to the draft report. On September 14, 2010, OIG provided the
     agency a revised draft report, and on September 17, 2010, the agency
     declined to provide any formal comments. The final report incorporates
     revisions made, where applicable, as a result of meetings with NRC staff.




                                  iv
                                            Audit of NRC’s Vendor Inspection Program


ABBREVIATIONS AND ACRONYMS

       A2LA        American Association for Laboratory Accreditation
       Appendix B Title 10 Code of Federal Regulations, Part 50, Appendix B,
                  Quality Assurance Criteria for Nuclear Power Plants and
                  Fuel Reprocessing Plants
       ASME        American Society of Mechanical Engineers
       10 CFR      Title 10, Code of Federal Regulations
       CFSI        counterfeit, fraudulent, and substandard items
       DOD         Department of Defense
       EPC         engineering, procurement, and construction
       EPRI        Electric Power Research Institute
       FAA         Federal Aviation Administration
       FY          fiscal year
       GAO         Government Accountability Office
       IAEA        International Atomic Energy Agency
       IMC         Inspection Manual Chapter
       IP          Inspection Procedure
       NRC         Nuclear Regulatory Commission
       NRO         Office of New Reactors
       NRR         Office of Nuclear Reactor Regulation
       NUPIC       Nuclear Procurement Issues Committee
       NVLAP       National Voluntary Laboratory Accreditation Program
       OIG         Office of the Inspector General
       Part 21     Title 10 Code of Federal Regulations, Part 21, Reporting of
                   Defects and Noncompliance
       QA          Quality Assurance




                                   v
                                                                   Audit of NRC’s Vendor Inspection Program


TABLE OF CONTENTS

    EXECUTIVE SUMMARY ....................................................................................... i
    ABBREVIATIONS AND ACRONYMS .................................................................. v
            I.       BACKGROUND .............................................................................. 1

            II.      PURPOSE ...................................................................................... 5

            III.     FINDINGS ....................................................................................... 5

                     A.     Enhanced Planning Would Improve Vendor
                            Identification and Selection ..................................................... 7

                     B.     Opportunity To More Effectively Communicate
                            Requirements........................................................................ 15

                     C.     Commercial-Grade Dedication and Part 21 Regulations
                            and Guidance Could Be Clarified .......................................... 23

                     D.     Calibration Laboratories Approval Guidance
                            Could Be Clarified ................................................................. 33

                     E.     NRC’s Approach to Counterfeit, Fraudulent, and
                            Substandard Items Could Be Strengthened .......................... 36

            IV.      CONSOLIDATED LIST OF RECOMMENDATIONS ..................... 42

            V.       AGENCY COMMENTS ................................................................. 43


        APPENDIX
            SCOPE AND METHODOLOGY .............................................................. 44




                                                      vi
                                               Audit of NRC’s Vendor Inspection Program




I.   BACKGROUND

        The Nuclear Regulatory Commission (NRC) endeavors to protect the
        public health and safety and the environment by overseeing vendor
        compliance with NRC’s regulations for assuring the integrity of domestic
        and global parts and services supplied to nuclear power reactors. NRC
        directly oversees compliance by conducting reactive and routine
        inspections of vendors, and indirectly through licensee audits of vendors
        and through American Society of Mechanical Engineers (ASME)
        standards. Vendors manufacture a range of components such as
        fasteners, pumps, valves, and reactor vessels, as well as provide design,
        engineering, and construction services.

        While most vendors do not hold NRC licenses, they are nonetheless
        bound through contracts with licensees, applicants, or other vendors to
        comply with NRC’s quality assurance regulations contained in Appendix B
        to Title 10, Code of Federal Regulations (10 CFR), Part 50 (Appendix B).
        Vendors are also required to comply with 10 CFR Part 21 (Part 21).

        Appendix B

        Appendix B requires that a quality assurance program be applied to all
        activities affecting structures, systems, and components of reactors that
        prevent or mitigate the consequences of postulated accidents that could
        cause undue risk to the health and safety of the public. The appendix
        establishes quality assurance requirements for the design, manufacture,
        construction, and operation of those structures, systems, and
        components. In particular, Appendix B requirements apply to all activities
        affecting the safety-related functions of those structures, systems, and
        components, which include the following: designing, purchasing,
        fabricating, handling, shipping, storing, cleaning, erecting, installing,
        inspecting, testing, operating, maintaining, repairing, refueling, and
        modifying.

        Vendors have a unique relationship with NRC through licensees given
        that, while the regulation requires licensees to establish and implement an
        Appendix B quality assurance program, it does not specifically require this
        of vendors. Vendors are nonetheless required to comply because this
        requirement is passed down from licensees to vendors through contracts.
                                      1
                                                        Audit of NRC’s Vendor Inspection Program


              For some new reactor projects, the applicant or licensee oversees its
              engineering, procurement, and construction (EPC) contractor’s quality
              assurance program; the EPC oversees its vendors’ quality assurance
              programs; the vendors oversee their sub-vendors’ quality assurance
              programs; the sub-vendors oversee sub-sub-vendors’ quality assurance
              programs; and so on, as shown in Figure 1. Likewise, operating reactor
              licensees oversee the quality assurance programs of their vendors, and so
              on. Ultimately, the applicant or licensee must ensure that applicable
              regulatory requirements, which are necessary to assure adequate quality,
              are included in the documents for procurement of material, equipment,
              and services, whether purchased by the applicant, or licensee, or by its
              vendors or sub-vendors.

  Figure 1: Vendor Quality Assurance (QA) Oversight Process




Source: Office of the Inspector General (OIG) analysis and NRC documents.




                                              2
                                        Audit of NRC’s Vendor Inspection Program


Part 21

Part 21 establishes (1) procedures for reporting defects in safety-related
components, and (2) a process for providing reasonable assurance that
commercial off-the-shelf parts used in nuclear power plant safety-related
applications will perform their intended safety function. Vendors are
required to notify NRC of a defect in a basic component—also referred to
as a “safety-related” component.

Vendors and their customers often acquire parts from commercial
suppliers that do not produce parts specifically designed or manufactured
for a nuclear safety-related application. These parts are called
commercial-grade items. If a customer decides to purchase commercial-
grade items, Part 21 requires the customer receiving the items to use a
commercial-grade dedication process to provide reasonable assurance
that these items destined for use in nuclear power plants will perform their
intended safety function. Commercial-grade dedication is an acceptance
process, performed under an Appendix B quality assurance program. The
outcome of this process is a commercial part deemed equivalent to an
item designed and manufactured under an Appendix B quality assurance
program.

NRC’s Vendor Inspection Programs

NRC conducts reactive and routine inspections of vendors’
implementation of Appendix B and Part 21 requirements. Typically,
reactive inspections are performed by NRC’s Office of Nuclear Reactor
Regulation (NRR), and routine inspections are performed by NRC’s Office
of New Reactors (NRO).

NRR inspections are generally focused on vendors supplying to the
current fleet of nuclear reactors operating in the United States. The source
of these reactive inspections stems from parts failures, allegations, and
observed performance problems of a particular vendor, among other
things. During fiscal year (FY) 2009 and the first half of FY 2010, NRR
devoted 2.1 full-time equivalent staff to vendor inspection and related
activities. During the period January 2009 through March 2010, NRR
performed five of these reactive inspections, which resulted in findings that
the vendor was not in compliance with one or more aspects of Part 21 or
Appendix B.
                              3
                                                               Audit of NRC’s Vendor Inspection Program


                In 2007, NRC established a routine inspection program in NRO. Like the
                NRR inspection program, the NRO inspection program inspects vendors’
                implementation of Appendix B and Part 21 and is focused on vendors who
                currently supply, or plan to supply, to the new generation of power
                reactors being developed in the United States. During FY 2009 and the
                first half of FY 2010, NRO devoted 23.8 full-time equivalent staff to vendor
                inspections, inspection program development, vendor outreach, and other
                related activities. During the period January 2009 through March 2010,
                NRO performed 16 of these routine inspections, which resulted in findings
                that the vendor was not in compliance with one or more aspects of Part 21
                or Appendix B.

                Global Market for Nuclear Parts

                Vendors providing safety-related parts and services for the nuclear
                industry have become increasingly global over the last few decades. For
                example, NRC regulations require parts of the reactor coolant pressure
                boundary1 to be manufactured according to the ASME Boiler and
                Pressure Vessel Code. The code requires those vendors manufacturing
                reactor coolant pressure boundary parts to have an ASME nuclear, or “N-
                type,” certificate. According to OIG analysis of industry documents, the
                number of U.S. vendors maintaining an ASME N-type certificate
                decreased to roughly 125 in 2009 from about 500 in 1980. The number of
                international ASME N-type certificates has fluctuated between about 80
                and 100 certificates. As of 2009, there were about 100 international firms
                with ASME N-type certificates.




1
  The reactor coolant pressure boundary is a primary barrier that protects the public from exposure to
radiation.
                                                    4
                                                   Audit of NRC’s Vendor Inspection Program


II.    PURPOSE


           The audit objective was to assess NRC’s regulatory approach for ensuring
           the integrity of domestic and foreign safety-related parts and services
           supplied to current or prospective nuclear power reactors. See the report
           Appendix for information on the audit scope and methodology.


III.   FINDINGS

           Beginning in 2007, the agency proactively enhanced its overall approach
           to vendor inspections and increased vendor outreach efforts. After the
           creation of NRO, two new branches were established to perform additional
           vendor inspections, including routine inspections. The staff:

                   Developed program documents and inspection procedures.

                   Increased NRC’s outreach related to new reactor vendor activities.

                   Established cooperative relationships with regulators from other
                   countries.

                   Initiated actions to evaluate counterfeit, fraudulent, and
                   substandard items efforts within the industry.

                   Held the first NRC vendor workshop.

           However, OIG has identified opportunities to further improve the program
           at both the office and the agency level.

           At the office level:

              Improvements to NRO’s vendor inspection planning would enhance
              the process NRC uses to identify and select vendors for routine
              inspections.




                                          5
                                                             Audit of NRC’s Vendor Inspection Program


                At the agency level:

                    The extent of regulations and guidance applicable to vendors is not
                    readily apparent, and NRC has an opportunity to more effectively
                    communicate its regulatory expectations and requirements to vendors.

                    NRC could clarify its expectations and requirements for Part 21 and
                    commercial-grade dedication.

                    NRC could clarify its expectations for approving certain accredited
                    calibration laboratories.2

                    NRC’s approach to monitoring and evaluating counterfeit, fraudulent,
                    and substandard items in the nuclear supply chain could be
                    strengthened.




2
 Calibration laboratories calibrate measuring and test equipment used by vendors to evaluate the
properties of materials and parts.
                                                   6
                                            Audit of NRC’s Vendor Inspection Program


A.   Enhanced Planning Would Improve Vendor Identification and
     Selection

     Improvements to NRO’s Vendor Inspection Program planning approach
     would enhance the process for identifying and selecting vendors for
     inspections. Currently, NRO’s vendor identification and selection planning
     process is largely informal, and faces challenges in accurately identifying
     the number of vendors supplying to the nuclear industry and in selecting
     vendors for inspection. This is because NRO does not have a
     management framework that includes a formalized, documented approach
     for identifying and selecting vendors for inspection. Consequently, NRO’s
     implementation of the Vendor Inspection Program, including resource
     planning and knowledge management efforts, may be hindered.
     Furthermore, NRO’s current, less formal approach to planning could miss
     vendors that should be identified for potential vendor inspections.

     Importance of a Formal Approach to Planning

     Government, industry, and academic studies have all emphasized the
     importance of a formal approach to planning. Implementing large-scale
     change management initiatives, such as mergers and organizational
     transformations, are not simple endeavors and require the concentrated
     efforts of both leadership and employees. As shown in Table 1,
     commonly accepted, formal approaches to planning include establishing
     an overall strategy and goals, establishing methodologies for setting
     priorities, identifying performance metrics, and managing resources.




                                   7
                                                    Audit of NRC’s Vendor Inspection Program


Table 1: Key Elements of Program Planning



     Overall Strategy and Goals
     Establishing a strategic framework and goals for an organization is integral to
     effective management and planning. Agency management is responsible for
     developing the detailed policies, procedures, and practices to fit their agency’s
     operations and to ensure that they are built into and are an integral part of
     operations.

     Methodologies for Setting Priorities
     Establishing action-oriented implementation goals and a timeline with milestones
     to track the organization’s progress towards its goals is essential. By
     demonstrating progress towards these goals, the organization builds momentum
     and demonstrates that real progress is being made. In addition, having
     implementation goals and milestone dates helps pinpoint performance shortfalls
     and gaps and suggests midcourse corrections, including any needed
     adjustments to the organization’s future goals and milestones.

     Identifying Performance Metrics
     Specific metrics to monitor, evaluate, and report on results allows for a feedback
     process to clearly identify areas for improvement. Failure to establish metrics to
     evaluate success and failure will result in an organization unable to clearly
     evaluate mission accomplishment. Furthermore, such organizations will not
     know which activities are succeeding or failing.

     Managing Resources and Change
     Effective agencies are also characterized by having a senior manager who has
     ultimate authority for, and budgetary control over, program implementation. For
     example, International Atomic Energy Agency (IAEA) guidance for managing
     program changes in nuclear utilities includes identification of a project leader and
     an outline of the costs, benefits, and risks involved. For significant changes,
     executive oversight bodies are often used to establish priorities, monitor
     progress, and remove barriers to change.

     Source: OIG analysis based on Government Accountability Office, IAEA, and academic
     documents.

            Planning at the program level is also important to improve successful
            implementation and outcomes. NRO has recognized the importance of

                                           8
                                        Audit of NRC’s Vendor Inspection Program


program-level planning for two emerging challenges, the Advanced Power
Reactor Program and NRO’s Pandemic Response, when it produced
formal planning documents for these programs. These planning
documents do not necessarily contain all of the key elements of program
planning, as described above. However, each of these planning
documents is adapted to the needs of the programs at their current stages
of development. For example, the Advanced Power Reactor Program
plan is currently focused on identifying the resource needs to stand up the
program, whereas the NRO Pandemic Response plan provides office-
specific, detailed guidance to be used in conjunction with NRC’s
Pandemic Plan.

NRO Vendor Identification and Selection Planning Process Is Largely
Informal

NRO’s planning process for identifying and selecting vendors for routine
inspections, and its strategy for guiding the process, is largely an informal
one. Simply identifying the number of vendors is challenging, and NRO
does not know how many vendors there are or how to identify changes in
the vendor universe. Furthermore, NRO’s planning for selecting vendors
for inspection is based on an informal approach that relies primarily on
professional judgment. Moreover, NRO’s overall strategic approach to
vendor identification and selection planning is informal as indicated by
NRO staff, who have varying views of the purposes of the Vendor
Inspection Program and routine vendor inspections.

Vendor Identification Presents Challenges

Identifying the vendors who supply to U.S. nuclear licensees is
challenging. While vendors have to meet NRC regulations for providing
quality products to the nuclear industry, vendors do not have to register
with or seek licensing approval from NRC. Consequently, NRO staff
members do not know how many vendors there are for the purpose of
selecting vendors for inspection and assessing current resource needs.

When asked how many vendors supplied safety-related items to the
nuclear industry, NRO managers and staff members opined a wide
numerical range of vendors, from 300 or 400 to “thousands.” Lacking any
formal method for acquiring this information, vendor inspection staff
members attempt to gauge the number of vendors by consulting various
                               9
                                       Audit of NRC’s Vendor Inspection Program


industry vendor lists, attending industry meetings, and reviewing
licensees’ vendor lists, when such lists are available. Nonetheless, none
of these sources are comprehensive, which helps to explain why staff
members have such wide-ranging perceptions for the number of vendors.
Such differences of opinion about the number of vendors across the
spectrum of staff members complicates vendor selection and resource
planning.

Vendor Selection Approach Relies on Professional Judgment

NRO’s planning for selecting vendors for inspection is based on an
informal approach that relies primarily on professional judgment.
Typically, this professional judgment is exercised during brainstorming at
group meetings and when individual vendor inspection staff members are
solicited for suggestions based on their own experiences or knowledge.
For example, one manager told OIG that people sitting down and
discussing whom to inspect is the best method and that other approaches
would be “unmanageable.” Some NRO managers maintained that they
conduct only 10 to 15 inspections per year and that, given the small
number of inspections, there is no need for a more formal approach to
selecting vendors for inspection. However, other NRO managers agreed,
given the small number of inspections, that is all the more reason to have
a more methodical vendor selection process.

A more formal, risk-based vendor selection methodology is available to
agency vendor inspectors, yet most NRO inspection staff members did not
appear to be aware of this methodology. In 2004, vendor inspection staff
members in NRR developed a methodology for identifying and prioritizing
key characteristics that would allow for a more rigorous selection of
vendors for inspection by NRC. The methodology was derived from a
risk-based model developed by the Federal Aviation Administration (FAA).
The model included procedures for identifying and categorizing levels of
risk, such as a given vendor’s performance history, whether it was foreign-
based or domestic, as well as the complexity of components being
manufactured and whether the components would be used in safety-
related systems. While this modified FAA methodology was never
formally validated by NRR, some NRR staff have used it informally;
however, NRO management and staff members were not using—or even
familiar with—this risk-based tool for vendor selection.


                             10
                                                   Audit of NRC’s Vendor Inspection Program


             A senior NRO inspector pointed to the vendor selection criteria in
             Inspection Manual Chapter (IMC) 2507, Construction Inspection Program:
             Vendor Inspections, as criteria by which NRO can identify vendors for
             inspection (see Figure 2). However, the broad-based criteria in IMC 2507
             are not formally tied to a methodology that links the inspection staff
             members’ variously-stated purposes of an inspection with the known
             vendor universe.

Figure 2: Broad Vendor Selection Criteria Excerpted from IMC 2507




Source: NRC Web site.


             NRO Staff Have Varying Views of the Purposes of the Vendor Inspection
             Program

             NRO’s overall strategic approach to vendor identification and selection
             planning is informal, as indicated by NRO staff who have varying views of
             the purposes of the Vendor Inspection Program and routine vendor
             inspections. For example, one senior NRO manager told OIG that
             conducting routine inspections was “a required duty” that “provided value

                                          11
                                        Audit of NRC’s Vendor Inspection Program


added,” while another senior NRO manager said that the main intent of
the program was to ensure quality by “maintaining a global presence.” Yet
another staff member said that the program was intended to “maintain
adequate oversight” of vendors. In no instance did NRO Vendor
Inspection Program management or staff point to a commonly understood
purpose of the program and the routine inspections that NRO conducts.

NRO’s Vendor Inspection Program Lacks a Formalized, Documented
Planning Approach

On the whole, the NRO Vendor Inspection Program conducts its activities
without the benefit of a management framework that includes a
formalized, documented planning approach. That is, NRO has not
developed planning and guidance documents for the purpose of:

   Articulating the goals and objectives of the program and establishing
   metrics to guide progress towards the overall program goals.

   Identifying vendors with Appendix B quality assurance programs that
   supply safety-related parts and services to the nuclear industry.

   Setting risk-informed priorities for which vendors to inspect.

Program planning begins with identifying goals and objectives for the
program. NRO management maintains that the vendor inspection
planning approach is based on management’s overall vision, and the
program as it currently exists is the realization of that vision. However,
management acknowledged that this vision was not formal in the sense
that it was not documented. In addition, NRO management has not
articulated clear goals and objectives for the purpose of conducting routine
vendor inspections.

NRO does not have formal metrics and measures in place to guide the
Vendor Inspection Program towards achieving its overall strategy and
goals, identifying environmental changes, and determining resource
needs. NRO management stated that they measure program results
based on inputs received from the reactive inspection program in NRR, as
well as the improved performance of some of the vendors. Given a
vendor universe that ranges from a couple hundred to possibly thousands
of vendors, it is unlikely that the 13 to 17 vendors that NRO inspects per
                              12
                                       Audit of NRC’s Vendor Inspection Program


year is representative of overall vendor performance. This is especially so
given the lack of any formal methodology for identifying and selecting
vendors for inspection.

Program Resource Planning and Knowledge Management at Risk

Without clearly articulated goals and objectives for the program; a
formalized, risk-informed documented approach to planning vendor
identification and selection for inspection; or metrics for evaluating
program performance, NRO’s implementation of the Vendor Inspection
Program, including resource planning and knowledge management
efforts, may be hindered. This is especially true given changes in the new
licensing environment. NRC is currently reviewing 18 combined operating
license applications for a potential 27 new reactors. But this number is
likely to change in the future, as is the number of potential domestic and
international vendors supplying new construction efforts. NRO’s current,
less formal approach to planning could be missing vendors that should be
identified for potential vendor inspections and may also result in
expending resources to conduct information-gathering inspections of
vendors rather than focus specifically on verifying the vendor’s compliance
with the regulations. For example, OIG observed one inspection where
the vendor’s organization, relationship to the licensee, and scope of work
were not known. Consequently, the inspection team was faced with
justifying the inspection on the basis of what they learned about that
vendor’s ongoing activities, rather than from specific criteria provided
through a documented planning approach.

Additionally, NRO’s informal, undocumented approach to identifying
vendors for inspection could affect knowledge transfer efforts from more
experienced inspectors to newer, less experienced staff members.
Currently, Vendor Inspection Program management relies largely on a
process whereby the vendor identification and selection process is
communicated verbally from managers to staff members. However,
transfers, promotions, and retirements have reduced the number of
vendor inspection staff members who are qualified to lead inspections.
Newer staff members, therefore, are coming to the Vendor Inspection
Program without the same level of institutional knowledge as their
predecessors. Given some of the ongoing personnel changes within
NRO, a senior manager was unaware if existing NRO guidance was
sufficient for newer, less experienced inspectors.
                             13
                                      Audit of NRC’s Vendor Inspection Program


Resource planning in NRO is also at risk. Without a formalized,
documented approach to identifying vendors for inspection, NRO is left to
estimate the size of both the domestic and foreign vendor universe, the
purpose and number of desired inspections, and the resulting resource
requirements to perform those inspections. For example, in a December
2009 memorandum to the Commission, NRO asserted that “the
appropriate number of inspections to be conducted annually will always be
a matter of judgment.” In any case, agency managers stated that “NRC is
in a flat budget world” and the constrained budget has been the primary
determinant in how many vendors can be inspected. Such a resource-
constrained environment makes formal, documented planning even more
important in the effort to identify vendors for potential inspection.

Recommendations

OIG recommends that the Executive Director for Operations:

1. Develop an NRO Vendor Inspection Program planning document that:

   a. Articulates a clear purpose for the Vendor Inspection Program.

   b. Establishes metrics to evaluate the success of the Vendor
      Inspection Program.

2. Develop and document a methodology to identify vendors that supply
   safety-related parts and services to the nuclear industry with Appendix
   B quality assurance programs.

3. Develop and document a risk-informed methodology to select vendors
   for inspection.




                             14
                                            Audit of NRC’s Vendor Inspection Program


B.   Opportunity To More Effectively Communicate Requirements

     NRC relies on nuclear vendors’ understanding and implementation of its
     regulations to assure that safety-related components will perform
     adequately in service, and that defects are reported. In order for vendors
     supplying nuclear components and services to be knowledgeable of their
     obligations under the regulations, NRC must effectively communicate the
     regulations. NRC has undertaken a number of efforts to communicate
     regulations to vendors, but some vendors are not aware of all obligations
     or NRC expectations. NRC’s approach to communicating with vendors is
     not as effective as it could be because it does not have an outreach/
     communications plan. When vendors are not knowledgeable of their
     obligations under NRC regulations, vendors might not report defects or
     otherwise fully assure that safety-related components will perform
     adequately in service.

     Vendors’ Role in the Oversight of Quality Requires Adequate
     Awareness of Requirements

     The two primary NRC regulations regarding vendor quality assurance
     oversight are Appendix B and Part 21. Appendix B enumerates quality
     assurance criteria for components and services used in nuclear power
     plants. Part 21 establishes (1) procedures for reporting defects in safety-
     related components, and (2) a process for providing reasonable
     assurance that commercial parts used in nuclear power plants in safety
     related applications will perform their intended safety function.

     NRC relies on vendors’ awareness and implementation of Appendix B and
     Part 21 requirements to assure that safety-related systems will perform
     adequately in service, and that defects are reported. NRC also
     recognizes the importance of effectively communicating these regulations
     to vendors supplying safety-related nuclear components and has therefore
     engaged in a number of efforts to make vendors aware of their obligations.
     In fact, NRC recognizes this as so important, it attempts to make both
     vendors and licensees aware of the particular role vendors play in
     overseeing vendor and sub-vendor activities related to the design,
     manufacture, construction, and operation of safety-related systems and
     components.



                                   15
                                       Audit of NRC’s Vendor Inspection Program


NRC leadership and vendor inspection staff members have stressed the
importance of vendors being aware of and understanding their obligations
under NRC regulations. For example, while speaking at an American
Nuclear Society conference, NRC’s then-Chairman urged licensees,
consultants, and vendors to be prepared to face the challenge of
overseeing the quality and authenticity of globally manufactured
components. In addition, NRC vendor inspection staff members have
emphasized vendor awareness of NRC regulations and have stressed this
to vendors and licensees at various nuclear industry conferences and
during vendor inspections.

In addition to relying on vendors’ awareness and implementation of the
regulations, NRC vendor inspection staff members expect licensees to
inform their vendors of NRC regulations and pass along other information
that could potentially increase vendor knowledge and understanding of
vendor obligations under NRC regulations. For example, a vendor
inspection staff member told OIG auditors that “since licensees approve
vendor programs and buy components from vendors, licensees make sure
vendors receive the information.”

NRC’s Communication Approach

NRC has reached out to vendors to inform them of their regulatory
obligations and NRC expectations, yet the agency’s approach to
communicating with vendors is not as effective as it could be. For each of
NRC’s primary methods of communicating with vendors—presentations,
two vendor workshops, generic communications, the NRC Web site—OIG
auditors obtained direct feedback from some vendors that indicated
problems with being aware of or receiving information from the agency.
Furthermore, NRC staff members are unsure of the effectiveness of the
agency’s outreach and communications activities.

Presentations

NRC vendor inspection staff members have given 38 presentations at no
fewer than 21 nuclear industry-led meetings over the last 5 years. These
presentations generally covered reporting of defects and noncompliance;
quality assurance processes; commercial-grade dedication; preventing the
entrance of counterfeit, fraudulent, and substandard items into the nuclear


                             16
                                                              Audit of NRC’s Vendor Inspection Program


                supply chain; and NRC vendor inspection activities. These presentations
                were directed at vendors and licensees at various nuclear industry-related
                conferences and meetings.

                When asked about the effectiveness of the presentations at industry-led
                meetings, NRC staff members could not point to any formal vendor
                feedback or agency analysis of effectiveness. Rather, NRC’s vendor
                inspection staff members have simply asserted they believe these
                presentations are effective. For example, a senior member of the vendor
                inspection staff contended that they know presentations at conferences
                are effective because inspection staff members will inspect a vendor they
                have not inspected in nearly 2 decades and not find “15,000 problems.”
                Another senior member of the vendor inspection staff said they know
                vendors are aware of their obligations merely because the regulations are
                public. However, it is difficult to claim that presentations are effective
                given that all vendors do not attend industry meetings, NRC does not
                generally know which vendors have attended all meetings, and NRC has
                not limited inspections to vendors who have attended industry meetings.

                OIG sought feedback from vendors about the effectiveness of NRC
                presentations as a method of obtaining knowledge about the regulations,
                and noted a variety of vendor concerns. For example, one recently
                inspected small vendor supplying safety-related nuclear components
                contended it is not always able to attend these meetings given scheduling
                or cost constraints. Additionally, some vendors are not aware of NRC
                presentations at meetings and, in any case, do not always have access to
                all industry-related meetings. For example, while the Electric Power
                Research Institute (EPRI)3 and the Nuclear Procurement Issues
                Committee (NUPIC)4 periodically host conferences, vendors generally are
                not invited to all meetings and sometimes do not have access to industry-
                generated guidance related to implementing NRC regulations.

                Additionally, some vendors are located outside the United States and do
                not always hear of these events; others, who are aware, told OIG auditors
                they are not always able to attend given the travel costs.


3
  EPRI is an independent, non-profit company performing research, development, and demonstration in
the electricity sector for the benefit of the public.
4
  NUPIC is an organization of nuclear power utilities in the United States and overseas. On behalf of its
members, NUPIC evaluates suppliers that have five or more NUPIC members as customers through joint-
utility Appendix B audits.
                                                   17
                                                    Audit of NRC’s Vendor Inspection Program


             2008 Vendor Workshop

             NRC hosted a Vendor Workshop in 2008, with the purpose to:

             1) Facilitate discussions on reactor construction issues.

             2) Provide the opportunity for vendors to understand regulations.

             3) Show how NRC evaluates vendors’ implementation of NRC
                regulations.

             The main session of the workshop was devoted to providing NRC and the
             nuclear industry some perspectives on implementing NRC regulations and
             related vendor issues (see Figure 3).

Figure 3: Presentations Covered at NRC’s 2008 Vendor Workshop




Source: NRC Web site.

                                          18
                                                            Audit of NRC’s Vendor Inspection Program


               NRC attempted to notify vendors of the workshop in several ways.
               Vendor inspection staff members personally contacted some vendors.
               The agency also issued a press release and posted a notification of the
               workshop on its Web site. Additionally, NRC notified vendors of the
               workshop by requesting industry associations—such as NUPIC and the
               Nuclear Energy Institute—to pass the notice to vendors.

               In fact, NRC relies on industry associations and licensees to pass
               information to vendors, but NRC is not able to verify whether this
               information is received by vendors. For example, a vendor who recently
               entered the nuclear industry indicated it was not aware of the 2008 vendor
               workshop. Another vendor told OIG auditors it would not have been
               aware of the workshop had it not recently interacted with NRC in an earlier
               inspection, despite the fact that it supplied to numerous licensees. A
               representative from a licensee and another from a vendor also told OIG
               auditors they do not always pass NRC information to their vendors or sub-
               vendors.

               Although NRC solicited feedback from attendees, the effectiveness of
               NRC’s efforts to notify the vendor universe about the workshop is largely
               unknown. NRC senior vendor inspection staff members conceded not all
               vendors were made aware of the 2008 workshop and NRC staff members
               are not sure how many vendors were actually notified. One NRO
               manager expressed surprise that so many vendors attended the
               workshop. OIG has since determined that at least 186 different vendors
               and utilities were represented at the 2008 workshop, which is likely a
               fraction of the vendors providing components and services to the nuclear
               industry under NRC regulations.

               Generic Communications

               NRC issued several generic communications to licensees regarding
               vendor-related quality assurance issues.5 Moreover, in 2007, NRC issued
               Information Notice 2007-40 directly to vendors who supply safety-related
               components to facilities licensed by NRC, as seen in Figure 4.


5
  NRC strives to maintain an effective generic communications program for the purpose of communicating
with the nuclear industry on generic issues. Generic communications are issued to inform the nuclear
industry of issues related to safety, security, safeguards, and environmental significance.

                                                 19
                                                                Audit of NRC’s Vendor Inspection Program


Figure 4: Addressees and Purpose Excerpted from Information Notice 2007-40




Source: NRC Web site.


                The purpose of this information notice was to inform vendors of NRC
                findings of inadequate implementation of regulatory requirements. The
                information notice was sent to vendors on an NRC e-mail listserv and to
                other vendors listed on an industry association vendor list. Similar to
                outreach for the vendor workshop, while NRC vendor inspection staff
                members recognized the importance of making vendors aware of their
                obligations under the regulations, NRC relied on industry associations and
                licensees to pass this information to vendors, and cannot verify whether
                vendors received the information notice.6

                Several vendors and workshop attendees indicated they were either not
                aware or did not understand the purpose of NRC generic communications.
                OIG auditors reviewed questions submitted at the 2008 vendor workshop,

6
  While NRC internal procedures do not require staff to track receipt of information notices, NRC relies on
licensees and vendors to pass this and similar information to their suppliers.
                                                    20
                                       Audit of NRC’s Vendor Inspection Program


interviewed vendors at nuclear industry meetings, and observed NRC
inspections of vendors. Licensee and vendor representatives told OIG
auditors that NRC efforts are mostly targeted at large vendors, and new
vendors do not know how to obtain information on compliance. One
licensee representative also remarked that vendors who do not have an
ongoing relationship with a licensee have difficulty obtaining vendor-
related information.

NRC Web Site

NRC vendor inspection staff members often direct vendors and licensees
to the NRC Web site to obtain information on vendors’ obligations under
NRC regulations, but some vendors have trouble navigating the NRC Web
site. To begin with, it is not clear from the NRC home page where a
vendor unfamiliar with NRC or the Web site should begin. Vendors and an
industry consultant told OIG auditors that while NRC posts valuable
information on its Web site, many stakeholders are unaware of vendor-
specific information on the Web site while others have difficulty navigating
the site. For example, a vendor currently supplying components for the
nuclear industry told OIG auditors that the NRC Web site is “tedious” and
“not user friendly.” This vendor also complained that while it conducts
weekly searches for vendor-specific material, most of the search results
point the vendor to unrelated information. Additionally, a small vendor
new to the industry told OIG auditors it had difficulty navigating the NRC
Web site and was unsure it was getting the most up-to-date information or
recent Web pages. Moreover, an industry consultant told OIG auditors
many vendors fear they might be in violation of NRC regulations because
they are unable to distinguish old information from recent changes and
updates on the NRC Web site.

NRC Would Benefit from a Formal, Documented Plan

NRC does not currently have—and would benefit from—a formal,
documented outreach/communications plan for vendor-related activities.
A formal plan would include a means for identifying the target audience
and the specific messages to be communicated to vendors, measurable
objectives, an implementation strategy, a means to weigh the efficiency
and effectiveness of various outreach and communications methods, and
a means to obtain feedback.


                              21
                                       Audit of NRC’s Vendor Inspection Program


Decreased Vendor Ability To Assure Quality of Components and
Services

When vendors are not aware of the regulations, they might not report
defects or otherwise fully assure that safety-related components will
perform adequately in service. Throughout OIG’s audit, vendors,
licensees, industry consultants, and NRC staff members expressed
concerns about the nuclear industry’s awareness of NRC regulations and
changes in regulation, guidance from NRC, and industry-generated
information related to assuring that safety-related components perform
adequately in service and that defects are reported. For example, during
a recent nuclear industry procurement meeting, representatives from
several licensees and vendors discussed the challenges of assuring that
new, current, and foreign vendors are aware of their obligations under
NRC regulations.

Because NRC does not have an outreach/communications plan for
vendor-related activities, it cannot fully identify and reach its target
audience, or effectively plan presentations in light of varying vendor
sophistication or ability to understand information. A documented plan
would help NRC evaluate whether outreach activities effectively
communicate intended messages, and build upon previous outreach
activities by integrating feedback from vendors into an overall outreach
strategy.

Recommendation

OIG recommends that the Executive Director for Operations:

4. Develop and use a vendor outreach/communications plan.




                             22
                                                             Audit of NRC’s Vendor Inspection Program


        C.      Commercial-Grade Dedication and Part 21 Regulations and Guidance
                Could Be Clarified

                Even when vendors are aware of the applicable NRC regulations and
                other regulatory information, NRC could clarify its expectations and
                requirements for Part 21 and commercial-grade dedication.7 NRC
                presumes that adherence to its regulatory requirements on the part of
                licensees and vendors assures safety. However, nuclear vendors are
                confused about how to adequately implement Part 21 and commercial-
                grade dedication due to unclear or insufficient guidance and guidance that
                conflicts with regulation. Consequently, vendors might fail to implement
                various aspects of their programs in accordance with NRC’s regulations,
                guidance, or expectations. Ultimately, this could lead to vendors (1)
                supplying parts and services to nuclear power plants that do not meet
                NRC regulatory requirements or quality assurance expectations, and (2)
                inadequately reporting defects.

                NRC Regulatory Requirements and Expectations for Nuclear
                Vendors

                According to agency management, NRC presumes safety based on
                regulatory compliance. That is, NRC presumes that adherence to its
                regulatory requirements on the part of licensees and vendors assures (1)
                the quality of safety-related parts and services, (2) that safety-related
                components will perform adequately in service, and (3) that defects will be
                properly reported. The primary regulations applicable to nuclear vendors
                are Appendix B and Part 21. NRC regulatory requirements and guidance
                applicable to vendors covers such topics as the nuclear procurement
                process, including the use of commercial off-the-shelf parts and services,
                and the reporting of defects.

                The Nuclear Procurement Process

                The regulation of vendors is, in part, based on the nuclear procurement
                process, which is intended to assure that plants obtain quality products
                and services. Vendors that supply safety-related equipment or services to
                the nuclear industry must meet NRC’s quality assurance requirements, as

7
  If a customer decides to purchase commercial-grade items, Part 21 requires the customer receiving the
items to use a commercial-grade dedication process to provide reasonable assurance that these items
destined for use in nuclear power plants will perform their intended safety function.
                                                  23
                                                               Audit of NRC’s Vendor Inspection Program


                promulgated in Appendix B.8 Therefore, nuclear power plant safety-
                related structures, systems, and components must be designed and
                manufactured under an Appendix B quality assurance program.

                Under NRC regulations, safety-related parts and services can only be
                procured in two ways, as shown in Figure 5. The purchaser of safety-
                related parts or services implementing an Appendix B quality assurance
                program can procure parts and services from a vendor that has been
                approved by the purchaser through an audit of that vendor’s Appendix B
                quality assurance program. Alternatively, the purchaser, through its
                Appendix B quality assurance program, may opt to dedicate commercial-
                grade items provided by commercial firms using a process described in
                Part 21.




8
  Appendix B requires that a quality assurance program be applied to all activities affecting structures,
systems, and components of reactors that prevent or mitigate the consequences of postulated accidents
that could cause undue risk to the health and safety of the public. The appendix establishes quality
assurance requirements for the design, manufacture, construction, and operation of those structures,
systems, and components.
                                                    24
                                                                Audit of NRC’s Vendor Inspection Program


Figure 5: The Nuclear Procurement Process




Source: OIG analysis and NRC documents.


                Commercial-Grade Dedication

                Commercial-grade dedication is an acceptance process undertaken to
                provide reasonable assurance that a commercial-grade item9 to be used
                as a basic component10 will perform its intended safety function. In this
                respect, the commercial-grade item is deemed equivalent to an item
                custom designed and manufactured under an Appendix B quality


9
  A commercial-grade item is a structure, system, or component that was not designed and manufactured
as a basic component.
10
   A basic component is a structure, system, or component that assures the integrity of the reactor coolant
pressure boundary; the capability to shut down the reactor and maintain it in a safe shutdown condition;
or the capability to prevent or mitigate the consequences of accidents. It is, essentially, a safety-related
component.
                                                    25
                                                                  Audit of NRC’s Vendor Inspection Program


                 assurance program. NRC regulations require commercial-grade
                 dedication to be performed under an Appendix B quality assurance
                 program.

                 Commercial-grade dedication is defined in Part 21. That regulation
                 defines a process to provide reasonable assurance that a commercial-
                 grade item will perform its intended safety function. Specifically, Part 21
                 states that this assurance is achieved by identifying the critical
                 characteristics11 of the item and then verifying the item meets these critical
                 characteristics through one or more of four acceptance methods.12 EPRI,
                 a private industry group, developed guidance for licensees to use in
                 utilizing commercial-grade items. In Generic Letter 89-02, NRC
                 conditionally endorsed EPRI’s guidance on commercial-grade dedication.

                 Requirements for Reporting Defects and Posting

                 Nuclear licensees and vendors are required to report to NRC when a
                 nuclear power plant safety-related component contains a defect that could
                 create a “substantial safety hazard,”13 and the documents relating to this
                 reporting requirement are to be posted on the vendor’s premises. NRC
                 promulgated defect reporting requirements through Part 21. Part 21
                 established a process by which licensees and vendors must evaluate
                 “deviations”14 to determine whether they could cause a substantial safety
                 hazard. A deviation that could cause a substantial safety hazard is a
                 “defect.” Licensees and vendors must report defects to NRC. Part 21
                 also prescribes that its requirements be prominently posted on the
                 premises of any facility licensed or otherwise regulated in the United
                 States under the Atomic Energy Act of 1954.




11
   Critical characteristics are those important design, material, and performance characteristics of a
commercial-grade item that, once verified, will provide reasonable assurance that the item will perform its
intended safety function.
12
   Part 21 describes four methods for accepting commercial grade items: (1) inspections, tests, or
analyses; (2) commercial grade surveys; (3) product inspections or witness at holdpoints at the
manufacturer’s facility; and (4) analysis of historical records for acceptable performance.
13
   A substantial safety hazard is a loss of safety function to the extent that there is a major reduction in the
degree of protection provided to public health and safety for any facility or activity licensed or regulated by
NRC.
14
   A deviation is a departure from the technical requirements included in a procurement document.
                                                      26
                                         Audit of NRC’s Vendor Inspection Program


Vendors Are Confused About Commercial-Grade Dedication and Part
21 Regulatory Requirements

Vendors are confused about and are having difficulty implementing NRC
regulations and guidance on (1) commercial-grade dedication acceptance
methods and sampling, (2) Part 21 reporting requirements, and (3) Part 21
posting requirements.

Confusion Over Commercial-Grade Dedication Acceptance Methods and
Sampling

Vendors are confused about NRC’s commercial-grade dedication
expectations and requirements. NRC vendor inspections indicate that
implementation of commercial-grade dedication programs is a problem for
vendors. From January 2006 through March 2010, 18 vendors were
found to have deficient commercial-grade dedication programs. During an
inspection, one vendor quality assurance manager referring to
commercial-grade dedication said that he had “been doing this for 3 or 4
decades and [was] just now figuring out how it is supposed to work.”

Vendors are specifically confused about which one, if any, of the four
acceptance methods is specifically required for accepting an item from a
commercial supplier. Several questions submitted by vendors to NRC
during the 2008 NRC vendor workshop expressed confusion about
whether one of the acceptance methods was required to be conducted as
required by Part 21. Additionally, a nuclear industry consultant who
regularly interacts with nuclear vendors told the OIG that many vendors
ask him about this issue.

Vendors are also confused about how to conduct sampling of identical
commercial items during the commercial-grade dedication process.
Vendors dedicating identical items might need to destroy some of the
items during testing to determine if all the items are acceptable. Because
the items are destroyed, a sample must be selected, and an adequate
basis for the sample must be documented. OIG witnessed one vendor’s
staff struggle to explain its justification in a sampling plan that called for
sampling only one item per lot. Additionally, several of the questions
submitted to NRC during the December 2008 NRC vendor workshop,
which included presentations on commercial grade dedication and


                               27
                                                               Audit of NRC’s Vendor Inspection Program


                sampling, indicated that vendors were confused about how to conduct
                sampling during commercial-grade dedication.

                Confusion About How To Adequately Implement Part 21 Reporting
                Requirements

                Another regulatory area that is confusing to vendors is how to adequately
                implement a Part 21 program. Part 21 requires vendors to evaluate
                deviations that could cause a substantial safety hazard or inform their
                customers if they are unable to perform the evaluation. If a deviation
                could cause a substantial safety hazard, it is considered a defect, and
                licensees and vendors must report defects to NRC. Of the 57 vendor
                inspection reports issued January 2006 through March 2010, 32 included
                one or more notices of violation against Part 21, indicating that the nuclear
                vendors’ Part 21 programs had one or more deficiencies.

                OIG observed firsthand how Part 21 is confusing to vendors. During four
                of eight vendor inspections that OIG observed,15 NRC identified
                inadequacies with the vendors’ Part 21 implementation procedures. One
                vendor quality assurance manager told the OIG that he gets “mixed
                signals” on Part 21. For example, with regard to Part 21 reporting, the
                quality assurance manager said it is hard to understand when to submit a
                Part 21 report. This manager explained that his company was criticized
                during an Appendix B audit by the customer for making a Part 21 report
                when it should not have, and then for not making a report when it should
                have.

                Difficulty Implementing Part 21 Posting Requirements

                Additionally, vendors are having difficulty complying with Part 21 posting
                requirements. Vendors must post a current copy of Part 21, Section 206
                of the Energy Reorganization Act, and the vendor’s procedures (or
                information that explains how to obtain a copy of the procedures) adopted
                to implement the regulation in a conspicuous position on the vendor’s
                premises. At five of the six domestic16 vendor inspections that OIG
                observed, NRC reviewed the vendors’ compliance with Part 21 posting
                requirements. Of those five vendors, NRC found three of the vendors’

15
   Of the eight inspections OIG observed, two were followups to previous inspections that had indentified
inadequacies with the vendors’ implementation of Part 21.
16
   Part 21 posting requirements apply only to facilities in the United States.
                                                   28
                                        Audit of NRC’s Vendor Inspection Program


attempts to comply with the posting requirements were inadequate, but
NRC did not issue violations for the non-compliant postings. For example,
in one instance NRC found that the vendor’s Part 21 posting did not
include the title of the vendor’s Part 21 procedure or information on where
the procedure is located. NRC inspectors chose not to issue a violation
for this omission.

Issues with Regulations and Guidance Cause Confusion

Vendors are confused about commercial-grade dedication and Part 21
regulatory obligations due to unclear or insufficient guidance and guidance
that conflicts with regulation. Specifically, (1) some of the industry
guidance that NRC has conditionally endorsed for commercial-grade
dedication acceptance methods conflicts with NRC regulations, (2) NRC
has not approved any guidance for sampling for commercial-grade
dedication, (3) NRC has not issued any guidance explaining a process
that it considers compliant with Part 21, and (4) NRC’s Web site does not
clearly reflect when the Part 21 regulation has changed.

Commercial-Grade Dedication Guidance Conflicts with Regulation

Vendors are confused about whether one of the four acceptance methods
for commercial-grade dedication is required because industry guidance
that was conditionally endorsed by NRC conflicts with NRC regulatory
requirements. According to Part 21, dedication is conducted by identifying
the critical characteristics of the item and verifying their acceptability by
inspections, tests, or analyses performed by the purchaser after delivery,
supplemented as necessary by one or more of the remaining acceptance
methods. However, EPRI’s guidance—which was conditionally endorsed
by NRC—indicates that the four acceptance methods, either individually or
in combinations, is adequate. This conflicts with Part 21 because the first
method (inspections, tests, or analyses) would always be performed
according to Part 21, whereas EPRI’s guidance says any of the four
acceptance methods is suitable.

NRC Does Not Have Guidance for Sampling in Commercial-Grade
Dedication

Vendors are also confused about how to conduct sampling of identical
commercial parts during the commercial-grade dedication process
                              29
                                       Audit of NRC’s Vendor Inspection Program


because NRC has not approved any guidance on sampling for
commercial-grade dedication. In 1997, NRC issued draft guidance for
sampling in commercial-grade dedication and, in 1999, EPRI issued its
own guidance document. However, NRC has neither approved its draft
guide, nor endorsed EPRI’s guidance. In the absence of approved
regulatory or industry guidance, NRC staff point vendors to two inspection
procedures (IP)—IP 38703 and IP 43004—for guidance on sampling.
These inspection procedures are written as guidance for NRC inspection
staff members assessing sampling in commercial-grade dedication. The
procedures are not a model for licensees or vendors to use in
implementing NRC regulatory requirements.

NRC Has Not Issued Guidance Explaining Part 21 Reporting
Requirements

Vendors are confused about how to implement Part 21 reporting
requirements because NRC has not issued regulatory guidance describing
a process that it considers compliant with the regulation. Many
stakeholders have pointed to Part 21 as being one of the most complex
regulations NRC has ever issued. In light of this, regulatory guidance
could help vendors understand a process that NRC considers compliant
with the regulation. However, NRC has not issued any guidance to help
vendors implement Part 21. Recognizing that this regulation is difficult to
understand, NRC has proposed a comprehensive rulemaking to revise
Part 21. The rulemaking may begin in FY 2012 and could take 3 or 4
years to complete.

Part 21 Changes Are Not Clearly Indicated on the NRC Web Site

Vendors are having difficulty complying with Part 21 posting requirements
because the regulations on NRC’s Web site do not clearly reflect what or
when changes have been made when regulations are revised, as shown
in Figure 6. Compliance with the posting requirement necessitates that
the vendor have the most up-to-date revision of Part 21. However,
because vendors do not know where to go to get the most up-to-date
version and they do not know when the regulation changed, vendors have
difficulty complying with this requirement. In one example, a vendor
quality assurance manager explained that NRC previously issued his
company a violation for an out-of-date Part 21 posting. He said that as a
result of that inspection, he revised his procedure to check the regulations
                              30
                                                  Audit of NRC’s Vendor Inspection Program


             for changes every year. Even though a year had not yet elapsed since he
             last checked to see if the regulation had changed, he decided to check
             anyway, and in fact the regulation had changed. He said that if he had
             followed his firm’s procedure, his company would have again been in
             violation.

Figure 6: NRC’s Title 10 Web Page




Source: NRC Web site.


             Vendor Confusion Might Lead To Inadequate Implementation of
             Appendix B and Part 21 Requirements

             As a result of vendors’ confusion about NRC regulatory requirements and
             expectations, vendors may fail to implement various aspects of their
             Appendix B and Part 21 programs in accordance with NRC’s regulations,

                                         31
                                       Audit of NRC’s Vendor Inspection Program


guidance, or expectations. Vendors might not implement commercial-
grade dedication requirements—including acceptance methods and
sampling—in the manner that NRC expects or in compliance with the
regulation, which could lead to substandard safety-related parts being
supplied to nuclear power plants. Additionally, vendors might not be
properly implementing Part 21 evaluation, reporting, and posting
requirements, which could lead to (1) defects not being properly reported
and (2) vendors unknowingly violating Part 21 posting requirements. If
defects go unreported, it is possible that substandard safety-related parts
could be supplied to, or in service at, operating nuclear power plants.

Recommendations

OIG recommends that the Executive Director for Operations:

5. Align NRC guidance and regulations to clarify acceptance methods for
   commercial-grade dedication.

6. Issue regulatory guidance to clarify sampling expectations for
   commercial-grade dedication.

7. Issue regulatory guidance describing a process that NRC considers
   acceptable for compliance with Part 21.

8. Clearly indicate via the NRC public Web site how and when Part 21
   has changed.




                              32
                                                             Audit of NRC’s Vendor Inspection Program


       D.      Calibration Laboratories Approval Guidance Could Be Clarified

               NRC’s guidance for approving accredited commercial-grade calibration
               laboratories—which calibrate measuring and test equipment used by
               vendors to evaluate the properties of materials and parts—could be
               clarified. In response to a request from one of its licensees, NRC allowed
               a process permitting the licensee to approve calibration laboratories based
               on the reviews performed by accrediting bodies in lieu of an Appendix B
               audit or a commercial-grade survey. However, since NRC’s guidance
               documents describing this process are disparate, vendors are confused
               about, and have difficulty implementing, the process. Consequently,
               vendors’ approval of laboratories may not be in accordance with NRC’s
               expectations, vendors may find themselves unknowingly in violation of
               Appendix B or NRC commercial-grade dedication requirements, and
               vendors could find they have used out-of-calibration equipment during the
               manufacturing process.

               Accredited Commercial-Grade Calibration Laboratories

               Calibration laboratories calibrate measuring and test equipment used by
               vendors to evaluate the properties of materials and parts. Under
               Appendix B, licensees and vendors must adequately control measuring
               and test equipment used on safety-related parts. In many instances,
               vendors send measuring and test equipment to a calibration firm for
               necessary calibration and adjustment. Calibration of measuring and test
               equipment used by vendors manufacturing safety-related parts must be
               procured from an Appendix B firm approved by the purchaser, or the
               services must undergo the commercial-grade
               dedication process.

               In 2004, one nuclear licensee proposed an
               alternative process to use calibration laboratories
               that had been accredited by two accreditation
               bodies—the American Association for Laboratory
               Accreditation (A2LA)17 and the National Voluntary Laboratory
               Accreditation Program (NVLAP)18—in lieu of an Appendix B audit or

17
   A2LA is a nonprofit, nongovernmental, public service, membership society that provides
comprehensive services in laboratory accreditation and laboratory-related training.
18
   NVLAP is run by the National Institute of Standards and Technology. NVLAP provides third-party
accreditation to testing and calibration laboratories.
                                                  33
                                       Audit of NRC’s Vendor Inspection Program


commercial-grade dedication. In 2005, NRC issued a Safety Evaluation
Report for this licensee approving the alternative process; however, in that
report, NRC included some additional steps the utility would have to take
in order to use the accredited calibration laboratories. Subsequent to the
issuance of the Safety Evaluation Report, NRC has issued several letters
expanding this recognition to include additional accreditation bodies in the
United States. Also, NRC issued a letter clarifying that vendors could use
calibration laboratories accredited by the recognized accreditation bodies,
provided that vendors adhered to the additional steps stipulated in the
Safety Evaluation Report.

Approving Accredited Commercial-Grade Calibration Laboratories Is
Confusing

Vendors are confused about how to adequately implement the process in
which NRC allows vendors to approve accredited calibration laboratories
in the United States for safety-related services. For example, one vendor
quality assurance manager explained that his company developed a
procedure for selecting calibration suppliers based on accreditation by
A2LA because “A2LA” was the latest “buzz word.” However, the vendor
had not adhered to the additional steps stipulated by NRC. Furthermore,
OIG observed the inspection of another vendor trying to implement this
process, and NRC issued a nonconformance to this vendor for approving
an accredited calibration firm without performing a supplier audit, even
though an audit may not have been necessary according to NRC’s own
guidance.

Calibration Laboratories Approval Process Guidance Is Disparate

NRC guidance explaining the process to approve accredited calibration
laboratories is disparate. In addition to issuing the Safety Evaluation
Report and several additional letters expanding NRC’s recognition to
additional accrediting bodies, NRC, in June 2006, issued a letter to NUPIC
clarifying that vendors could utilize the services of the calibration
laboratories accredited by the recognized accrediting bodies. NRC also
described this process in the Standard Review Plan (NUREG-0800). NRC
has posted most of these documents on the section of its Web site
devoted to calibration services, yet the letter specifically directed at
vendors—the June 2006 letter to NUPIC—is not. Having that vendor-
specific letter listed with all the other correspondence explaining this
                              34
                                       Audit of NRC’s Vendor Inspection Program


process would make it easier for vendors to understand that they may use
this process to approve calibration laboratories accredited by the
recognized accreditation bodies.

Furthermore, some of these NRC documents have different lists of steps
that are required for implementing the process, making it difficult for
vendors to know how to implement the process in the manner NRC
expects. One NRO manager said that NRO and NRR staff members are
reevaluating the NRC position on allowing licensees and vendors to
approve accredited calibration laboratories. NRC staff are considering
whether to expand this recognition to include international calibration
laboratories as well as testing laboratories in the United States and
overseas. One senior NRO staff person noted that accreditation bodies,
such as A2LA, are better at reviewing calibration laboratories than
licensees or vendors because the accreditation body staff are experts in
calibration.

Vendor Confusion Might Lead To Inadequate Implementation of
Appendix B and Part 21 Requirements

As a result of vendors’ confusion about NRC regulatory guidance and
expectations for approving certain accredited calibration laboratories, (1)
vendors might not be approving accredited calibration laboratories in the
manner that NRC expects, (2) vendors could find themselves unknowingly
in violation of NRC regulations, and (3) vendors could later determine that
they used out-of-calibration measuring and test equipment during the
manufacture and assembly of safety-related parts and components or
during the dedication of commercial-grade items.

Recommendation

OIG recommends that the Executive Director for Operations:

9. Develop guidance that clarifies the requirements for vendors on how to
   approve accredited commercial-grade calibration laboratories for
   safety-related applications.




                             35
                                             Audit of NRC’s Vendor Inspection Program


E.   NRC’s Approach to Counterfeit, Fraudulent, and Substandard Items Could
     Be Strengthened

     NRC could strengthen its current approach to counterfeit, fraudulent, and
     substandard items (CFSI). Both the Federal Government and private
     sector have recognized the increasing prevalence of CFSI in nuclear and
     other industries. However, NRC’s approach has been primarily reactive
     and based largely on the abilities of one or two individuals to monitor and
     evaluate the threat. This is because NRC lacks a formal strategy and plan
     to monitor and evaluate potential CFSI, and consider program changes to
     address the CFSI issue. Consequently, the lack of any formal strategy or
     framework to address CFSI could result in reactor construction problems
     with major implications for public health and safety.

     The Need To Address CFSI as a Serious Threat

     Both the Federal Government and private sector have recognized the
     threat of CFSI and have taken steps to address it. At the Federal level,
     the Department of Commerce, the Government Accountability Office
     (GAO), the Department of Defense (DOD), and the FAA have all
     determined that CFSI is a threat. NRC and the nuclear industry have also
     acknowledged the threat of CFSI.

     The defense industry has been particularly subject to the pitfalls of CFSI.
     The Department of Commerce’s Office of Technology Evaluation, in a
     2010 report, stated that 39 percent of companies and organizations
     working in the defense sector encountered counterfeit electronics during a
     4-year period. Moreover, the Office of Technology Evaluation found an
     increasing number of counterfeit incidents being detected, rising from
     3,868 incidents in 2005, to 9,356 incidents in 2008. These counterfeit
     incidents included multiple versions of parts and components that had
     been qualified by DOD. The GAO also identified a number of weaknesses
     in the DOD supply chain, noting in a 2010 report that DOD had a limited
     ability to determine the extent to which counterfeit parts exist in its supply
     chain. As a result of the GAO report, DOD agreed to improve its ability to
     prevent, detect, report, and dispose of counterfeit parts.

     For the civilian aviation industry, the FAA implemented a program in 1995
     to address suspected unapproved parts. The FAA program’s purpose is
     to identify unapproved parts related to the aircraft industry and to remove
     them from the aviation system. According to the FAA, the program
                                   36
                                                    Audit of NRC’s Vendor Inspection Program


             extends into the wider aviation community. FAA officials have stated that
             there are many parts suppliers, distributors, owners/operators, and legal
             enforcement authorities who do not understand the importance of
             installing only approved aircraft parts. To combat this, the FAA holds
             seminars with the aviation community and has a Web site and hotline to
             facilitate rapid receipt and analysis of complaints about suspected parts
             (see Figure 7). As a result of the increase of public awareness of the
             suspected unapproved parts program, the FAA has reported a significant
             increase in notifications and investigations. The FAA has asserted that
             the only way to keep CFSI out of aircraft is for the entire industry to
             proactively identify and ensure such items are removed from the supply
             chain.

Figure 7: FAA Web Site for Reporting Suspected Unapproved Parts




Source: FAA Web site.

             The nuclear industry has also reported concerns with the integrity of the
             nuclear supply chain. EPRI published a report in late 2009 that noted an
             increase in CFSI activity worldwide. The report further noted that there
                                          37
                                       Audit of NRC’s Vendor Inspection Program


have been at least six separate instances of counterfeit parts getting into
the nuclear industry supply chain, though as far as is known, none of them
were safety-related.

Given the global nature of the nuclear supply chain, some agency
Commission members have also spotlighted CFSI in public speeches. In
2007, NRC’s then-Chairman expressed concerns that the close scrutiny
that regulatory agencies can bring to bear on major manufacturers to
assure that quality components are produced does not always apply with
the same intensity to the sub-vendors that supply parts and materials to
the manufacturers. The Chairman stated that it was of great concern that
substandard or counterfeit components could find their way into a
commercial nuclear reactor. The Chairman returned to the issue of CFSI
in 2008, and proposed that foreign regulatory counterparts set up a formal
system of sharing data about CFSI. One of NRC’s previous
Commissioners also emphasized the issue of CFSI, declaring that
concerns were neither academic nor hypothetical and that NRC has
previously identified counterfeit and deficient parts and continues to seek
better ways of monitoring the increasing globalization of the nuclear
supply chain through international collaborations.

Emphasizing the threat of CFSI to the nuclear industry, NRC published an
information notice in 2008 that provided specific examples of CFSI that
had gotten into the nuclear industry’s supply chain. This included some
counterfeit valves that were discovered in 2007 in systems that were not
safety-related, but provided cooling to the main electric generator at a
boiling water reactor plant. Another example showed how the Consumer
Product Safety Commission issued a recall of counterfeit Square D circuit
breakers that had been manufactured overseas (see Figure 8). The
breakers had been purchased for use by three licensees, one of whom
discovered that the breakers were counterfeit.




                             38
                                                     Audit of NRC’s Vendor Inspection Program


Figure 8: A Counterfeit Square D Circuit Breaker




Sources: NRC and Consumer Product Safety Commission.



             Ultimately, the threat posed by CFSI to the nuclear industry is that of a
             faulty component being installed in a safety-related system. The failure of
             safety-related components could affect a reactor’s operations, reducing
             the margin of safety and resulting in operating conditions of degraded
             safety and quality.

             NRC’s Overall Approach to CFSI Is Largely Reactive

             NRC’s overall approach to CFSI appears not to match the significance of
             the potential threat and is primarily reactive in nature. Despite concerns
             with CFSI in other industries dating back to the mid-1990s, NRC’s
             attention was not significantly drawn towards CFSI until relatively recently.
             NRC and EPRI staff members said that there had not been substantive
             concerns regarding CFSI activity at NRC for nearly 20 years until spurred
             by the former Chairman’s 2007 speech. One senior program manager
             stated that the industry was “taken by surprise” by the Chairman’s speech,
             as CFSI had not been thought to have been much of a problem since
             NRC last addressed it in the late 1980s with a generic communication sent
             to licensees.

             Since NRC’s renewed interest, the agency’s approach to combating CFSI
             has been based largely on the abilities of a few individuals in NRR and
             NRO to monitor and evaluate the threat. NRC managers stated that staff
             members addressing CFSI are doing so on an informal basis as their

                                           39
                                       Audit of NRC’s Vendor Inspection Program


other duties allowed and, at present, only about 15 percent of one full-time
equivalent staff member is being dedicated to addressing CFSI issues. To
NRR’s and NRO’s credit, these staff members are evaluating component
defect reports for CFSI-related items. However, these staff members also
acknowledged that there are no clear procedures for whom to contact in
the event potential CFSI was uncovered at a vendor. Moreover, when
asked if current inspection procedures included criteria for identifying
CFSI, a senior inspector said that it probably would not.

Outside of the NRO- and NRR-designated staff members for CFSI, other
staff members are generally not involved in CFSI monitoring and
evaluation. For example, Vendor Inspection Program staff members are
either unaware of the agency’s CFSI efforts or have varying interpretations
of where CFSI fits into vendor inspections. Some NRO inspectors felt that
identifying and evaluating CFSI-related issues was outside their area of
responsibility. Other inspectors said that overall direction from managers
was unclear and staff members were using their own judgment to
informally evaluate potential CFSI. Nonetheless, one NRC executive
expressed belief that the vendor inspections as carried out will identify
potential CFSI. During the eight vendor inspections that OIG attended,
auditors observed only one inspector informally reviewing a vendor’s
facilities for conditions that may contribute to future CFSI. Furthermore,
when asked if the current inspection process would catch CFSI, a senior
inspector stated that it probably would not.

NRC’s CFSI Approach Lacks a Formal Strategy and Plan

NRC’s approach to CFSI appears to be largely reactive because the
agency does not have a formal strategy and plan to monitor and evaluate
potential CFSI, and consider program changes to address the CFSI issue.
NRC managers acknowledged that they could not provide many details
about the agency’s approach to CFSI issues. NRC also does not have a
standing working group or other centralized body to address CFSI issues,
although it does have a largely-incomplete draft CFSI charter for such a
group. This document is very preliminary and currently provides no details
beyond a statement establishing the intent to create mechanisms for
notification and coordination across NRC program offices. However, there
is no specific plan or strategy for communicating CFSI issues.



                             40
                                       Audit of NRC’s Vendor Inspection Program


NRC Might Be Missing Opportunities To Identify CFSI Early

NRC might be missing opportunities to identify CFSI in a less reactive and
more proactive manner. CFSI is an evolving threat that poses serious
potential risks to the nuclear industry. Without a formal strategy or
framework to address CFSI, NRC could fail to identify CFSI issues in a
timely fashion, with the potential for counterfeit or fraudulent components
being installed in safety-related reactor systems. Additionally, a lack of a
formal strategy hampers NRC’s ability to identify resource needs and
allocations to address CFSI and impairs agency knowledge management
efforts to address it. Furthermore, if CFSI were to make it into a safety-
related system in a nuclear power plant, it could degrade the ability of the
system to perform its safety function, which could reduce the protection of
public health and safety.

Recommendation

OIG recommends that the Executive Director for Operations:

10. Develop and implement a formal agencywide strategy and plan in
    order to monitor and evaluate CFSI.




                              41
                                                  Audit of NRC’s Vendor Inspection Program


IV.   CONSOLIDATED LIST OF RECOMMENDATIONS


`         OIG recommends that the Executive Director for Operations:

          1.   Develop an NRO Vendor Inspection Program planning document that:

                 a. Articulates a clear purpose for the Vendor Inspection Program.

                 b. Establishes metrics to evaluate the success of the Vendor
                    Inspection Program.

          2.   Develop and document a methodology to identify vendors that supply
               safety-related parts and services to the nuclear industry with Appendix
               B quality assurance programs.

          3.   Develop and document a risk-informed methodology to select vendors
               for inspection.

          4.   Develop and use a vendor outreach/communications plan.

          5.   Align NRC guidance and regulations to clarify acceptance methods for
               commercial-grade dedication.

          6.   Issue regulatory guidance to clarify sampling expectations for
               commercial-grade dedication.

          7.   Issue regulatory guidance describing a process that NRC considers
               acceptable for compliance with Part 21.

          8.   Clearly indicate via the NRC public Web site how and when Part 21
               has changed.

          9.   Develop guidance that clarifies the requirements for vendors on how
               to approve accredited commercial-grade calibration laboratories for
               safety-related applications.

          10. Develop and implement a formal agencywide strategy and plan in
              order to monitor and evaluate CFSI.

                                        42
                                              Audit of NRC’s Vendor Inspection Program


V.   AGENCY COMMENTS

        On August 17, 2010, OIG provided a draft report to the Executive Director
        for Operations. OIG held an exit conference with the agency on
        August 31, 2010. During that meeting agency management provided
        informal comments to the draft report. Also, on September 10, 2010, OIG
        held an additional meeting with NRC staff to discuss the agency’s informal
        comments to the draft report. On September 14, 2010, OIG provided the
        agency a revised draft report, and on September 17, 2010, the agency
        declined to provide any formal comments. The final report incorporates
        revisions made, where applicable, as a result of meetings with NRC staff.




                                     43
                                              Audit of NRC’s Vendor Inspection Program


                                                                            Appendix
SCOPE AND METHODOLOGY

       The audit objective was to assess NRC’s regulatory approach for ensuring
       the integrity of domestic and global parts and services supplied to nuclear
       power reactors. To address the audit objective, OIG observed eight
       vendor quality assurance inspections, which include NRC’s review of
       vendor’s compliance with both Part 21 and Appendix B criteria; attended
       one NUPIC vendor audit; observed industry training courses for vendor
       quality assurance; and attended several industry meetings and two NRC
       vendor workshops. OIG discussed vendor issues with applicable vendor
       managers or consultants at each of the eight vendor inspections, and at all
       of the industry meetings and training courses attended. OIG also
       reviewed NRC regulations and guidance, and interviewed NRC staff
       members and industry officials. Additionally, OIG identified and reviewed
       vendor quality assurance inspection-related reports and memoranda,
       reviewed nuclear industry vendor standards and guidance, and analyzed
       NRC vendor quality assurance inspection reports dating back to 2006.
       Key documents reviewed include:

        Energy Reorganization Act of 1974, Section 206.

        10 CFR Part 21, Reporting of Defects and Noncompliance.

        10 CFR Part 50, Appendix B, Quality Assurance Criteria for Nuclear
         Power Plants and Fuel Reprocessing Plants.

        NUREG-0302, Rev 1, Remarks Presented (Questions/Answers
         Discussed) at Public Regional Meetings to Discuss Regulations (10
         CFR Part 21) for Reporting of Defects and Noncompliance.

        NUREG-1055, Improving Quality and the Assurance of Quality in the
         Design and Construction of Nuclear Power Plants: A Report to
         Congress.

        Inspection Manual Chapter 2507, Construction Inspection Program:
         Vendor Inspections.

        Inspection Manual Chapter 0614, Documenting 10 CFR 52
         Construction Audit Activities.
                                    44
                                    Audit of NRC’s Vendor Inspection Program


 Inspection Manual Chapter 0617, Vendor and Quality Assurance
  Implementation Inspection Reports.

 Inspection Procedure 36100, Inspection of 10 CFR Part 21 and 10
  CFR 50.55(e) Programs for Reporting Defects and Noncompliance.

 Inspection Procedure 38703, Commercial Grade Dedication Programs.

 Inspection Procedure 43002, Routine Inspections of Nuclear Vendors.

 Inspection Procedure 43003, Reactive Inspections of Nuclear Vendors.

 Inspection Procedure 43004, Inspection of Commercial Grade
  Dedication Programs.

 Inspection Procedure 43005, NRC Oversight of Third-Party
  Organizations Implementing Quality Assurance Requirements.

 Management Directive 8.18, NRC Generic Communications Program.

 NRC information notices.

 NRC generic letters.

 Agency office instructions.

 Vendor QA inspection plans and reports.

 SECY papers.

 NRC vendor presentations.

 Commissioners’ speeches and NRC press releases.

 Nuclear industry vendor guidance documents.

 GAO reports.

 Academic management publications.


                             45
                                      Audit of NRC’s Vendor Inspection Program


Auditors conducted 46 interviews with agency and industry employees,
including NRC managers and staff members at headquarters, and
members of the nuclear industry. OIG conducted this audit at NRC
headquarters, and selected licensee and vendor locations in the United
States, France, and Japan.

We conducted this performance audit, from October 2009 through August
2010, in accordance with generally accepted Government auditing
standards. Those standards require that the audit is planned and
performed with the objective of obtaining sufficient, appropriate evidence
to provide a reasonable basis for any findings and conclusions based on
the stated audit objective. OIG believes that the evidence obtained
provides a reasonable basis for the report findings and conclusions based
on the audit objectives. Internal controls related to the audit objective
were reviewed and analyzed. Throughout the audit, auditors were aware
of the possibility or existence of fraud, waste, or misuse in the program.

Major contributors to this report were Sherri Miotla, Team Leader;
R.K. Wild, Team Leader; Kevin Nietmann, Senior Technical Advisor;
Michael Zeitler, Audit Manager; Timothy Wilson, Senior Management
Analyst; Levar S. Cole, Senior Management Analyst;
Vidya Sathyamoorthy, Student Management Analyst; and
Diane Furstenau, Student Management Analyst.




                             46
